U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 31, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Devona Hollingsworth v. Department of Veterans Affairs, No. 19-586
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 1,
2019. The government’s response is now due, after one extension, on January 6, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including February 5, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0586
HOLLINGSWORTH, DEVONA
DEPARTMENT OF VETERANS AFFAIRS

JOSEPH D. MAGRI
MERKLE & MAGRI, PA
5601 MARINER STREET
SUITE 400
TAMPA , FL 33609
813-281-9000
JMAGRI@MERKLEMAGRI.COM

